No. 20-826

In the Supreme Court of the United States
MIKE BROWN, ACTING WARDEN, PETITIONER
v.
ERVINE DAVENPORT
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PROOF OF SERVICE
The undersigned certifies that on September 1, 2021, she e-served the Reply
Brief of Petitioner and a certificate of compliance by e-filing and e-mailing same to
the email address provided:
•

Tasha J. Bahal, Tasha.Bahal@wilmerhale.com

Paper copies will be served by Cockle Legal Briefs upon:
Counsel of Record for Respondent:
Tasha Bahal
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com
/s/ Holly Gustafson
Holly Gustafson, Legal Secretary

2311 Douglas Street
Omaha, Nebraska 68102-1214
1-800-225-6964
(402) 342-283 I
Fax: (402) 342-4850

f'OCKLE

~ L e g a l Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

EsLi923

Web Site
www.cocklelegalbriefs.com

No. 20-826
MIKE BROWN, ACTING WARDEN, PETITIONER
V.

ERVINE DAVENPORT

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the I st day of September, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:
SEE ATTACHED

To be filed for:
Dana Nessel
Michigan Attorney General
FadwaA. Hammoud
Solicitor General
Counsel of Record
P.O. Box30212
Lansing, Michigan 48909
HammoudF l@michigan.gov
(517) 335-7628
Jared Schultz
Assistant Attorney General
Criminal Trials & Appeals Div.
Attorneys for Petitioner

Subscribed and sworn to before me this Ist day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

HERAf. ~OTARY-Stalli al Hellril-lka
RENEE J. GOSS

My Comm. Exp. September 5, 2023

Affiant

40935

Counsel of Record for Respondent
Tasha Bahal
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com

